No. 19-731
In the

Supreme Court of the United States
PANCHO ’S LLC,
Petitioner,
v.
JAMES T. HUGHES, MARGARET RITCHIE , JOYCE
ROBINSON , TERRI RANSON , JAMES MC COY, MARSHA
GEYER , KEITH KING , JUDITH MILLER , IN THEIR
OFFICIAL AND INDIVIDUAL CAPACITIES AS MEMBERS
OF THE JACKSON COUNTY BOARD OF HEALTH ,
JONATHAN GRAZIANI, INSPECTOR FOR THE JACKSON
COUNTY HEALTH DEPARTMENT, SUSAN HOSAFLOOK,
ADMINISTRATOR OF THE JACKSON COUNTY HEALTH
DEPARTMENT, JACKSON COUNTY BOARD OF HEALTH ,
BY CORPORATE AND POLITIC , JOHN DOE #1, IN
INDIVIDUAL AND OFFICIAL CAPACITY, AND JOHN DOE
#2, IN INDIVIDUAL AND OFFICIAL CAPACITY,
Respondents.
On Petition for Writ of Certiorari to the
Supreme Court of Appeals of West Virginia

BRIEF IN OPPOSITION FOR RESPONDENTS
Jeffery W. Lilly
Rose Padden Petty Taylor & Lilly, L.C.
P.O. Box 1307
Fairmont, West Virginia 26554
(304) 363-4260
jlilly@rpptl.com

QUESTION PRESENTED
1. Did the Supreme Court of Appeals of West
Virginia err when it applied the well-established
standard of Paul v. Davis, 424 U.S. 693 (1976) and
held that the 2005 FDA Model Food Code, adopted
by the State of West Virginia for health
inspections of establishments serving food, does
not create a present enjoyment of reputation or
entitlement to goodwill as the “more tangible
interest” necessary to trigger the protections of the
Due Process Clause of the Fourteenth
Amendment?

i

CORPORATE DISCLOSURE STATEMENT
Respondents, the Jackson County Board of Health
and the Jackson County Health Department, are
governmental entities and are not private corporate
entities. The individual Respondents are employees or
members of the Board of Directors for those two
governmental entities.
STATEMENT OF RELATED PROCEEDINGS
In the Circuit Court of Jackson County, West Virginia:
Civil Action No. 13-C-98
PANCHO’S LLC, Plaintiff, v. JAMES T. HUGHES,
MARGARET RITCHIE, JOYCE ROBINSON, TERRI
RANSON, JAMES MCCOY, MARSHA GEYER,
KEITH KING, JUDITH MILLER, in Their Official and
Individual Capacities as Members of the Jackson
County Board of Health, JONATHAN GRAZIANI,
Inspector for the Jackson County Health Department,
SUSAN HOSAFLOOK, Administrator of the Jackson
County Health Department, JACKSON COUNTY
BOARD OF HEALTH, by Corporate and Politic, John
Doe #1, in Individual and Official Capacity, and John
Doe #2, in Individual and Official Capacity,
Defendants.
DECISION - December 4, 2017
In the Supreme Court of Appeals of West Virginia:
Docket No. 17-1146
PANCHO’S LLC, Petitioner, v. JAMES T. HUGHES,
MARGARET RITCHIE, JOYCE ROBINSON, TERRI
RANSON, JAMES MCCOY, MARSHA GEYER,
KEITH KING, JUDITH MILLER, in Their Official and
ii

Individual Capacities as Members of the Jackson
County Board of Health, JONATHAN GRAZIANI,
Inspector for the Jackson County Health Department,
SUSAN HOSAFLOOK, Administrator of the Jackson
County Health Department, JACKSON COUNTY
BOARD OF HEALTH, by Corporate and Politic, John
Doe #1, in Individual and Official Capacity, and John
Doe #2, in Individual and Official Capacity,
Respondents.
DECISION - September 9, 2019
There are no additional proceedings in any court
that are directly related to this case.

iii

TABLE OF CONTENTS
QUESTION PRESENTED. . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . vi
BRIEF IN OPPOSITION FOR RESPONDENTS . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT
REASONS FOR DENYING THE PETITION . . . . . . 1
A. Paul v. Davis Is the Well-settled, Controlling
Law Relating to the Petitioner’s Failed Section
1983 Claims for Damage to Reputation and it
Should Remain the Well-settled, Controlling
Law Relating to Such Claims . . . . . . . . 2
B. There Is Neither a Split Among the Circuits
Nor a Conflict in Application Among the
Circuits Relating to the Well-established
Precedent in Paul v. Davis . . . . . . . . . . . . . . 9
C. The State Court Below Accurately Applied the
Well-Settled Law of Paul v. Davis When It
Unanimously Held That the 2005 FDA Model
Food Code Adopted By the State of West
Virginia Does Not Grant Any Legal Guarantee
of Present Enjoyment of Reputation
iv

or Goodwill . . . . . . . . . . . . . . . . . . . . . . 13
D. The Ruling Sought By Petitioner Would Result
In Overwhelming the Case Load of the
Judicial System and Would Chill the Free and
Open Dissemination of Public Information
Regarding Health Department Inspections of
Food Establishments . . . . . . . . . . . . . 17
E. Perceived
Mi sstatements
of
Fact
or Law . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

v

TABLE OF AUTHORITIES
CASES
Marrero v. City of Hialeah, 625 F.2d 499
(5th Cir. 1980) . . . . . . . . . . . . . . . . . 5, 6, 7, 11, 13
Mullane v. Central Hanover Bank and Trust Co., 339
U.S. 306 (1950) . . . . . . . . . . . . . . . . . . . . . 5, 7, 8
Paul v. Davis, 424 U.S. 693 (1976) . . . . . . . . . . . . 10
Sciolino v. City of Newport News, 480 F.3d 642
(4th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . . 10
Segal v. City of N.Y., 459 F.3d 207 (2nd Cir.
2006) . . . . . . . . . . . . . . . . . . . . . . . . 10
White v. Thomas, 660 F.2d 680 (5th Cir.
1981) . . . . . . . . . . . . . . . . . . . . . . . 11
Wojcik v. Mass. Lottery Comm’n, 300 F.3d 92
(1st Cir. 2002) . . . . . . . . . . . . . . . . . . 11, 12
STATUTES
42 U.S.C. § 1983 (hereinafter referred to as
“Section 1983”) . . . . . . . . . . . 1, 2, 3, 4, 5, 7, 9, 14, 16
OTHER AUTHORITIES
2005 FDA Model Food Code . . . . . 13, 14, 16, 17, 20, 21

vi

BRIEF IN OPPOSITION FOR RESPONDENTS
OPINIONS BELOW
The opinion of the Supreme Court of Appeals of
West Virginia was an unpublished opinion in the form
of a Memorandum Decision. The unpublished opinion
below was docketed as 17-1146 and is available on
Westlaw at 2019 WL 4257286. The opinion of the trial
court below, the Circuit Court of Jackson County, West
Virginia, likewise was not published. Both opinions
were included in the Petition as Appendix A and
Appendix B, respectively.
ARGUMENT
REASONS FOR DENYING THE PETITION
The Petition for writ of certiorari should be denied
because: (A) Paul v. Davis, 424 U.S. 693 (1976) is the
well-settled, controlling law on the issue of Section
1983 claims for damage to reputation, and clearly
should remain the well-settled controlling law relating
to the Section 1983 claims asserted by the Petitioner
below; (B) there is neither a split among the Circuit
Courts of Appeal nor a conflict in the application
among the Circuit Courts of Appeal relating to the
holding of Paul, supra, to warrant granting certiorari
in this case; ( C) the Supreme Court of Appeals of West
Virginia accurately applied the holding of Paul, supra,
in its unanimous decision; and (D) the ruling sought by
the Petitioner would result in overwhelming the case
load of the judicial system and would chill the free and
open dissemination of public information regarding
health department inspections of food establishments.
1

A. Paul v. Davis Is the Well-Settled, Controlling
Law Relating to the Petitioner’s Failed
Section 1983 Claims for Damage to
Reputation and It Should Remain the WellSettled, Controlling Law Relating to Such
Claims
The Petition for Writ of Certiorari (hereafter “the
Petition”) should be denied because this Court has
unequivocally held that harm to one’s reputation, no
matter how severe, alone does not give rise to a Section
1983 cause of action for denial of due process. In short,
the law relating to Section 1983 violations of due
process claims for damage to reputation is well-settled
by this Court’s holding in Paul v. Davis, 424 U.S. 693
(1976). More specifically, this Court clearly held:
any harm or injury to that interest [in
reputation], even where as here inflicted by an
officer of the State, does not result in a
deprivation of any “liberty” or “property”
recognized by state or federal law, nor has it
worked any change of respondent's status as
theretofore recognized under the State's laws.
For these reasons we hold that the
interest in reputation asserted in this
case is neither “liberty” nor “property”
guaranteed against state deprivation
without due process of law.
See Paul v. Davis, 424 U.S. 693, 712 (1976)(emphasis
added).

2

In Paul v. Davis, supra, this Court addressed the
issue of whether the plaintiff therein had a claim for
relief under Section 1983 for violation of his due
process rights where law enforcement agencies
published and distributed to 800 local businesses a
“flyer” which contained the photograph and name of
individuals who had been arrested for shoplifting,
including the plaintiff. See Id. at 694-95. The “flyer”
not only contained the photograph and name of the
plaintiff and other individuals, but it also utilized
terms such as “active shoplifters,” “shoplifting
activity,” and “subjects known to be active in this
criminal field.” Id. In addition, the “flyer” advised the
businesses to “inform your security personnel to watch
for these subjects.” Id. In essence, the plaintiff,
through his name and mug shot photograph, had been
labeled as an “active shoplifter” and a “criminal” and
this information was published and widely distributed
to 800 businesses in the area. Id. The plaintiff’s
labeling as an “active shoplifter” and “criminal” was
based strictly on his shoplifting arrest and not on the
basis of any conviction. See Paul v. Davis, 424 U.S.
693, 694-95 (1976). In fact, the shoplifting charges
against the plaintiff were ultimately dismissed after
the flyer had already been published and widely
distributed by law enforcement agencies. Id. After the
shoplifting charges were dismissed, the plaintiff
brought his suit against the law enforcement agencies
which published and distributed the “flyers” based
upon a Section 1983 and Fourteenth Amendment
denial of due process rights for the law enforcement
agencies publishing this “flyer” without notice and
opportunity to be heard being first afforded to the
plaintiff. Id.
3

The Paul Court further explained:
The words “liberty” and “property” as used in
the Fourteenth Amendment do not in terms
single out reputation as a candidate for special
protection over and above other interests that
may be protected by state law. While we have
in a number of our prior cases pointed out the
frequently drastic effect of the “stigma” which
may result from defamation by the
government in a variety of contexts, this line
of cases does not establish the
proposition that reputation alone, apart
from some more tangible interests such
as employment, is either “liberty” or
“property” by itself sufficient to invoke
the procedural protection of the Due
Process Clause.
See Paul v. Davis, 424 U.S. 693, 701 (1976)(emphasis
added).
The Paul Court summarized its holding by stating
that it “granted certiorari in this case to consider
whether [the plaintiff’s] charge that [the
States’s] defamation of him, standing alone and
apart from any other governmental action with
respect to him, stated a claim for relief under 42
U.S.C. § 1983 and the Fourteenth Amendment.
For the reasons hereinafter stated, we conclude
that it does not.” See Paul v. Davis, 424 U.S. 693,
694 (1976)(emphasis added). In reaching this holding,
the Paul Court reasoned that a federally recognized
liberty or property interest is only implicated when
4

reputation is stigmatized in connection with the denial
of a specific constitutional guarantee or some “more
tangible” interest. Id. at 700-01; see also Marrero v.
City of Hialeah, 625 F.2d 499, 512-13 (5th Cir.
1980)(citing Paul v. Davis, supra).
Consequently, it is well-settled that this Court’s
holding in Paul v. Davis, supra, is the controlling law
for Section 1983 cases asserting claims of a deprivation
of constitutional due process rights relating to damage
to reputation.
The Petitioner appears to contend that this Court
should overturn or modify its well-settled holding in
Paul v. Davis, supra, by either following the Fifth
Circuit’s “interpretation” of Paul, supra, or by adopting
the “easier” standard purportedly set forth in Mullane
v. Central Hanover Bank and Trust Co., 339 U.S. 306
(1950). See Petition at pg. 8, ¶ 3. However, both of
these apparent contentions by the Petitioner are
erroneous.
First, contrary to the Petitioner’s arguments, the
Fifth Circuit has not applied an “interpretation” of
Paul, supra, that deviates in any manner from the
clear holding in Paul, supra, described above. The
Petitioner contends that, in Marrero v. City of Hialeah,
625 F.2d 499 (5th Cir. 1980), the “Fifth Circuit Court of
Appeals takes a different approach to ‘stigma to
reputation’ cases than does the West Virginia state
courts and the other federal circuit courts mentioned
above.” See Petition at pg. 8, ¶ 3. However, the
Petitioner’s contention that Marrero takes a “different
approach” is simply erroneous. Instead, the Marrero
5

Court not only quotes Paul v. Davis, supra, throughout
the decision, it clearly applies the holding of Paul v.
Davis in the exact same fashion as the Paul Court did,
as well as in the same fashion the other Circuit Courts
of Appeal and the Supreme Court of Appeals of West
Virginia all apply Paul. More specifically, in applying
its holding that reputation alone is insufficient to
invoke due process protections, the Paul Court found
no other specific constitutional guarantees or some
“more tangible” interest to be implicated in order to
trigger due process protections. See Paul v. Davis, 424
U.S. 693, 711-12 (1976). Specifically, the Paul Court
held that “Kentucky law does not extend to respondent
any legal guarantee of present enjoyment of reputation
which has been altered as a result of petitioners'
actions. Rather his interest in reputation is simply one
of a number which the State may protect against
injury by virtue of its tort law, providing a forum for
vindication of those interests by means of damages
actions.” Id.
The Fifth Circuit’s Marrero Court likewise quoted
and applied in the exact same fashion the holding in
Paul, supra, that a federally recognized liberty or
property interest is only implicated when reputation is
stigmatized in connection with the denial of a specific
constitutional guarantee or some “more tangible”
interest. See Marrero v. City of Hialeah, 625 F.2d 499,
512-13 (5th Cir. 1980)(citing Paul v. Davis, 424 U.S.
693, 700-01 (1976)). Contrary to the Petitioner’s
contentions, the difference between Marrero and Paul
was a factual difference and not a difference in
approach or difference in application of the controlling
law on this issue. Unlike Paul, in Marrero the
6

claimant had also suffered a violation of its Fourth
Amendment constitutional protections, which is clearly
a specific constitutional guarantee. See Marrero v.
City of Hialeah, 625 F.2d 499 (5th Cir. 1980). In
addition, unlike Paul, in Marrero the law in the state
of Florida specifically recognizes business goodwill as
a property interest protected by due process. Id. at
514. Thus, the Fifth Circuit’s Marrero Court does not
take a “different approach” in applying the clear and
unambiguous holding in Paul; instead, the presence of
both a violation of Fourth Amendment rights and
Florida law recognizing business goodwill as a
property interest in Marrero is what warranted a
different outcome between Paul and Marrero.
Consequently, there is clearly neither a “different
approach” applied in Marrero nor a need for this Court
to overturn, expand, modify or otherwise deviate in
any manner from the clear, well-settled holding in
Paul v. Davis, supra. Therefore, this Court should
deny the Petition.
In addition, the Petitioner alternatively suggests
that this Court “return to the easily understood
standard fixed by Mullane v. Central Hanover Bank
and Trust Co., 339 U.S. 306 (1950).” See Petition for
Writ of Certiorari at pg. 6, ¶ 3. The Petitioner’s
contention is once again erroneous. Mullane, supra, is
wholly distinguishable and inapplicable to the issues
at hand in the present case. More specifically,
Mullane neither involves a claim for damage to
reputation nor does it involve a Section 1983 claim.
See Mullane v. Central Hanover Bank and Trust Co.,
339 U.S. 306 (1950). Instead, while Mullane does
7

address due process rights to notice and opportunity to
be heard, Mullane solely addresses the constitutional
sufficiency of the manner in which notice of the
opportunity to be heard was served. Id. More
specifically, Mullane solely addresses the
constitutional sufficiency of the New York statutory
notice to beneficiaries by publication of judicial
settlement of accounts by the trustee of a common
trust fund established under New York banking law.
Id. Mullane, does not, however, address in any
manner whatsoever the issue of whether reputation
alone is a liberty or property interest subject to due
process protections. Id. Further, Mullane does not set
forth any general discussion or rationale as to how a
court should determine if a liberty or property interest
is at stake to warrant due process protections. Id.
Instead, Mullane solely addresses the fact that judicial
settlement of a trust account could result in a
deprivation of property in the form of trust assets, and
then specifically addresses the central issue of whether
newspaper publication of notice of the opportunity to
be heard was adequate notice to satisfy due process
protections. See Mullane v. Central Hanover Bank and
Trust Co., 339 U.S. 306 (1950). In short, Mullane is
clearly inapplicable to the issues in the present case
and clearly does not set forth an “easily understood
standard” relating to whether reputation is a property
or liberty interest subject to due process protections.
Instead, Mullane only sets forth a standard relating to
the service of notice of an opportunity to be heard
when due process rights are actually implicated. Id.
Consequently, contrary to the Petitioner’s
contention, the holding in Mullane, supra, is
8

inapplicable and would not provide a better standard
by which Section 1983 cases for damage to reputation
are determined. For these reasons, the Petitioner
clearly fails to satisfy its burden of providing
legitimate, substantive reasons for this Court to
overrule or otherwise modify this Court’s well-settled
precedent in Paul v. Davis, supra. Therefore, the
Court should deny the Petition.
B. There Is Neither a Split Among the Circuits
Nor a Conflict in Application Among the
Circuits Relating to the Well-Established
Precedent in Paul v. Davis
The Petitioner contends that there is either a split
or a “conflict” among the Circuits and state courts in
how Paul v. Davis, 424 U.S. 693 (1976) is applied.
Further, the Petitioner argues that state and federal
appellate courts use additional more narrow standards
when applying the Paul v. Davis holding.
As
demonstrated below, neither of these contentions have
merit. In fact, when reviewing each of the cases cited
in the Petition, it is abundantly clear that all of the
cases upon which the Petitioner relies do, in fact, apply
the holding of Paul v. Davis in the same manner as
applied by the Paul Court. In addition, a review of
each of the cases cited by the Petitioner further
demonstrates that these decisions do not add elements
to, or narrow, the standard set forth in Paul. Instead,
the cases cited by the Petitioner merely categorize the
Paul standard into “elements” when applying the same
principles in the same manner as applied by the Paul
Court.

9

The Petitioner first cites the Second Circuit case of
Segal v. City of N.Y., 459 F.3d 207, 212 (2nd Cir. 2006).
A review of Segal clearly shows that the Second
Circuit simply follows the well-established principles
of Paul v. Davis. More specifically, the Segal Court
states that “[w]e have recognized that a probationary
employee can ‘invoke the protections of the Due
Process Clause’ where that employee has suffered a
loss of reputation ‘coupled with the deprivation of a
more tangible interest, such as government
employment.’” Segal v. City of N.Y., 459 F.3d 207, 212
(2nd Cir. 2006)(quoting Patterson v. City of Utica, 370
F.3d 322, 330 (2nd Cir. 2004)). Clearly, the Segal Court
is simply applying the well-established standard
requiring a damage to reputation plus the deprivation
of a “more tangible interest[] such as employment” set
forth in Paul. See Paul v. Davis, 424 U.S. 693, 701
(1976).
The Petitioner next cites the Fourth Circuit Case
of Sciolino v. City of Newport News, 480 F.3d 642, 646
(4th Cir. 2007). Once again, the Sciolino Court simply
follows the well-established principles of Paul v. Davis.
More specifically, the Sciolino Court clearly quotes and
relies upon the holding in Paul “that an individual's
liberty interest in his reputation is only sufficient ‘to
invoke the procedural protection of the Due Process
Clause’ if combined with ‘some more tangible interest[]
such as employment.’” See Sciolino v. City of Newport
News, 480 F.3d 642, 646 (4th Cir. 2007)(quoting Paul v.
Davis, 424 U.S. 693, 701 (1976)). Once again, it is
abundantly clear that the Sciolino Court is simply
applying the well-established standard set forth in
Paul.
10

The Petitioner then cites the Fifth Circuit case of
White v. Thomas, 660 F.2d 680, 684 (5th Cir. 1981).
Once again, in addressing Mr. White’s “claims that his
dismissal violated due process because he was
deprived of a constitutionally protected liberty interest
without a proper notice or hearing” the Thomas Court
cited Paul v. Davis when holding that “[r]eputation
alone is not a constitutionally protected interest
although state law may create a right to damages for
defamation.” See White v. Thomas, 660 F.2d 680, 684
(5th Cir. 1981)(citing Paul v. Davis, 424 U.S. 693
(1976)). The Thomas Court further stated that “[a]
constitutionally protected liberty interest is implicated
only if an employee is discharged in a manner that
creates a false and defamatory impression about him
and thus stigmatizes him and forecloses him from
other employment opportunities.”
See White v.
Thomas, 660 F.2d 680, 684 (5th Cir. 1981)(citing Paul
v. Davis, 424 U.S. 693, 706 (1976)). Hence, the
Thomas Court is likewise simply employing the wellestablished standard of Paul v. Davis in reaching its
decision. Furthermore, the Fifth Circuit Court’s
decision in Marrero is discussed in detail above to
demonstrate that the Fifth Circuit again simply
applies the well-established Paul v. Davis standard in
reaching its decision in Marrero as well.
Finally, the Petitioner cites the First Circuit case
of Wojcik v. Mass. Lottery Comm’n, 300 F.3d 92, 103
(1st Cir. 2002). Just as in all the other cases cited by
the Petitioner, the Wojcik Court once again relies upon
the well-established principles of Paul v. Davis in
reaching its First Circuit decision. The Wojcik Court
states that “[i]t is beyond cavil that ‘defamation, even
11

from the lips of a government actor, does not in and of
itself transgress constitutionally assured rights.’” See
Wojcik v. Mass. Lottery Comm’n, 300 F.3d 92, 103 (1st
Cir. 2002)(citing Paul v. Davis, 424 U.S. 693, 700-01
(1976)(other citations omitted). In its reliance upon
Paul, the Wojcik Court goes on to state that an
exception to this general rule exists when a
government employer creates and disseminates false
and defamatory impressions about an employee in
connection with the employee’s discharge from
government employment thereby also implicating a
“more tangible interest” required by Paul v. Davis.
See Wojcik v. Mass. Lottery Comm’n, 300 F.3d 92, 103
(1st Cir. 2002). Thus, once again, in reaching its
decision the First Circuit likewise follows the wellestablished standard of Paul v. Davis that a “more
tangible interest,” such as employment, must be
implicated in connection to the injury to reputation to
trigger due process protections.
Clearly, each and every case cited by the Petitioner
relies upon and applies the well-established principles
set forth in Paul v. Davis, supra. Furthermore,
contrary to the Petitioner’s contention, the “additional
elements,” if any, set forth in each of the cases cited
above are merely categorized iterations of the
components of the well-established standard provided
by this Court in Paul v. Davis.
Quite simply, there is clearly no split or conflict
among the Circuit Courts of Appeal or the state courts
in applying the well-settled law of Paul v. Davis,
supra, to warrant this Court granting certiorari in this
case. As demonstrated above, all of the cases cited by
12

the Petitioner are applying the principles set forth in
Paul in the same substantive manner in which those
principles were applied by the Paul Court. Even
Marrero, upon which the Petitioner relies heavily,
applies the principles of Paul in the same manner as
the Paul Court. The only difference between Marrero
and Paul is the different factual situation in Marrero
(i.e. the existence of a separate Fourth Amendment
violation and a Florida state law recognizing a
property interest in goodwill) which justifies the
different outcomes between the two cases despite the
same application of legal principles. Therefore, given
the clear absence of any split or conflict among the
Circuit Courts of Appeal or state appellate courts, this
Court should deny the Petition.
C. The State Court Below Accurately Applied
the Well-Settled Law of Paul v. Davis When It
Unanimously Held That the 2005 FDA Model
Food Code Adopted By the State of West
Virginia Does Not Grant Any Legal
Guarantee of Present Enjoyment of
Reputation or Goodwill
Paul v. Davis, supra, provides the well-settled law
that “a federally recognized liberty or property interest
is only implicated when reputation is stigmatized in
connection with the denial of a specific constitutional
guarantee or some “more tangible” interest. See Paul
v. Davis, 424 U.S. 693, 700-01 (1976). The Petitioner
has never alleged at any point in this case that it’s
reputation was stigmatized in connection with the
denial of any specific constitutional guarantee, such as
First Amendment or Fourth Amendment
13

constitutional guarantees. Instead, the Petitioner has
always relied solely upon the 2005 FDA Model Food
Code, adopted by the State of West Virginia, as its
source of “some more tangible interest” as required by
Paul to support its meritless Section 1983 claim for
damage to reputation. The Supreme Court of Appeals
of West Virginia clearly held in its decision below that
the 2005 FDA Model Food Code, as adopted by the
State of West Virginia, does not provide the “more
tangible” interest required by Paul to sustain the
Petitioner’s denial of due process claim.
See
Memorandum Decision of W.Va. Sup. Ct. below, dated
September 9, 2019, Appendix A to Petition.
The Supreme Court of Appeals of West Virginia
clearly quoted and applied the well-established,
controlling legal principles set forth in Paul v. Davis in
rendering its decision below. Further, the Supreme
Court of Appeals of West Virginia accurately applied
the holding of Paul in its decision below “that the
interest in reputation asserted in this case is neither
‘liberty’ nor ‘property’ guaranteed against state
deprivation without due process of law.”
See
Memorandum Decision of W.Va. Sup. Ct. below, dated
September 9, 2019, Appendix A to Petition, at pg. 7a
(quoting Paul v. Davis, 424 U.S. 693, 712 (1976)).
The Court below then moved on to the issue of
whether the 2005 FDA Model Food Code, as adopted
by the State of West Virginia, provides the state law
extension to the Petitioner of any legal guarantee of
present enjoyment of reputation as required by Paul,
supra. The Supreme Court of Appeals of West Virginia
clearly and unanimously held below that it does not.
14

Id. at 8a. In considering this issue, the court below
stated that “[Petitioner would distinguish its case from
Paul on the ground that Paul involved an application
of Kentucky law, and that [West Virginia]
jurisprudence provides rights that Kentucky law does
not.” Id. The lower court went on to state that “[t]he
Supreme Court [of the United States] explained that
‘Kentucky law does not extend to respondent any legal
guarantee of present enjoyment of reputation which
has been altered as a result of petitioners’ actions.”
See Id. at 8a (quoting Paul v. Davis, 424 U.S. 693, 71112 (1976)). The court below further stated that
“[Petitioner] argues that it finds itself in a different
situation because the [] food code language [Petitioner
relies upon] imbues it with the right of protection of its
business goodwill . . . .” See Id. at 8a.
Ultimately, the Supreme Court of Appeals of West
Virginia unanimously held below that:
[t]he food code language cited by [Petitioner]
does not create an entitlement to
goodwill. Though it generally assures the
just application of remedies according to law,
it, like the Kentucky jurisprudence
discussed by the Paul Court, offers no
“legal guarantee of present enjoyment of
reputation . . . .” We therefore find the legal
principles indistinct from Paul, and find that
the circuit court did not err in this regard.
See Memorandum Decision of W.Va. Sup. Ct. below,
dated September 9, 2019, Appendix A to Petition, at
pg. 9a (quoting Paul v. Davis, 424 U.S. 693, 711-12
15

(1976)(emphasis added).
The court below accurately applied the principles
of Paul v. Davis, supra, when concluded that the
Petitioner has no valid claim for denial of due process
rights in this matter. Further, the Supreme Court of
Appeals of West Virginia clearly held that West
Virginia recognizes no legal guarantee to present
enjoyment of reputation or goodwill. In fact, the
Petitioner has admitted that the courts in West
Virginia “have required proof of a protected
interest in reputation, which apparently does
not exist in West Virginia.” See Petition at pg. 8, ¶
2 (emphasis added). More specifically, the Supreme
Court of Appeals of West Virginia accurately concluded
that the 2005 FDA Model Food Code, adopted by the
State of West Virginia, upon which the Petitioner
solely relies in support of its claim does not provide the
legal guarantee of present enjoyment of reputation
required by Paul as the “more tangible interest”
necessary to sustain a Section 1983 claim for damage
to reputation.
Consequently, the highest court in West Virginia,
has clearly, unambiguously and unanimously
confirmed that West Virginia law provides no “legal
guarantee of present enjoyment of reputation” as
required by Paul v. Davis, supra. The issues in this
case have already been fully addressed by this Court
in Paul v. Davis and the lower court accurately applied
Paul v. Davis in reaching its decision. Therefore, this
Court should deny the Petition because the decision
below accurately applied the well-settled principles of
Paul v. Davis.
16

D.

The Ruling Sought By Petitioner Would
Result in Overwhelming the Case Load of
the Judicial System and Would Chill the
Free and Open Dissemination of Public
Information Regarding Health
Department Inspections of Food
Establishments

The Petitioner ultimately seeks from this Court
the creation of a legal requirement that all food
establishments be provided procedural due process in
the form of notice and an opportunity to be heard
prior to any publication of food establishment
inspection results. In other words, Petitioner seeks
a ruling that, after a food establishment inspection has
occurred, the inspecting government entity shall
provide to each establishment inspected notice and
opportunity to be heard before the inspecting agency
may disseminate that information to the public
through publication in any format despite the
undisputed fact that the inspection results are openly
public information anyway. The implementation of
any such legal requirement would clearly be
devastating to the judicial system not only in West
Virginia, but now nationwide with such a ruling from
this Court.
More specifically, the already
overwhelmed judicial system would be further
overwhelmed exponentially by the necessity of
conducting hearings on food inspection results before
the results could be published. It is unimaginable how
much more overwhelmed the judicial system would be
if every person or entity subject to food inspection
powers is now entitled to a hearing for each food
inspection before the results may be published.
17

For example, the subject publication in the present
case for Jackson County alone (a sparsely populated,
rural West Virginia county) would have potentially
generated eighty-three (83) initial hearings solely for
the months of April, May, June and July of 2011
during the time frame and the newspaper publication
at issue in this case. Then, of course, each of those
eighty-three (83) initial hearings would be subject to
potentially eighty-three (83) appeal hearings to the
county circuit court. Further, each such hearing would
then potentially lead to eighty-three (83) appeals to
the Supreme Court of Appeals of West Virginia – all of
which statistics are just for Jackson County during a
period of four (4) months in 2011. The statewide and
national increase in judicial activity related to
hearings on the publication of food inspection scores
would be astronomical on an annual basis, particularly
when considering the more densely populated areas of
the state of West Virginia as well as the much more
heavily populated states across the nation.
In addition, public policy not only favors free
dissemination of public information, particularly food
inspection results for the establishments where the
general public eats, but it also favors the timely
dissemination of such valuable information.
Ironically, the Petitioner complained in this case that
it took four (4) months for the subject food inspection
results to be published. Nevertheless, the Petitioner
contends that the publication of food inspection results
should further be delayed by notice, hearing and the
exhaustion of the judicial process before the results
may be published. The public has a right to know the
food inspection results for the establishments from
18

which the public consumes its food, and it has a right
to know those results in a timely fashion so that they
can timely make informed decisions about where or
where not to consume their food. Thus, the public
policy favoring the timely dissemination of food
inspection results would clearly be thwarted by
potentially months, if not years, of delay between the
inspection and the publication of the results resulting
from the full exhaustion of the judicial remedies the
Petitioner seeks in this case.
Moreover, the public policy of widely disseminating
public information, such as food inspection results,
would likely also be thwarted altogether if the
Petitioner prevails in this case. More specifically, it is
likely that most county health departments would
simply decide to cease their practice of publishing food
inspection results if the publication could only occur
after each entity had notice and opportunity to be
heard (as well as exhaustion of the appellate process)
before the results could be published. In other words,
most health departments would determine that it is
just easier to stop publishing food inspection results
rather than comply with newly created requirements
of notice and a hearing before the results may be
published. Most health departments would further be
inclined to cease publishing food inspection results
because the results would be stale by the time such
requirements had been satisfied to permit publication.
In short, the judicial system would be overwhelmed by
hearings on the publication of food inspection results,
and/or the inspection results would simply no longer be
published if the Petitioner prevails in this case. For
this Court to hold, as the Petitioner ultimately asks
19

this Court to do, that notice and opportunity to be
heard must first occur before such public information
may be published would further overwhelm an already
overwhelmed judicial system and would also place a
chilling effect on the dissemination of public
information to the populace. Therefore, this Court
should deny the Petition.
E.

Perceived Misstatements of Fact or Law

In order to avoid waiver of this issue, the
Respondents object to the second Question Presented
set forth in the Petition on the grounds that it contains
a perceived misstatement of fact and/or law. More
specifically, the second Question Presented in the
Petition erroneously refers to the 2005 FDA Model
Food Code as a “federal regulation.” The Respondents
likewise object to all instances throughout the Petition
in which the Petitioner erroneously refers to the 2005
FDA Model Food Code as a “federal regulation” on the
grounds that it contains a perceived misstatement of
fact and/or law. The 2005 FDA Model Food Code,
which was adopted by the State of West Virginia, is
quite simply not a federal regulation as represented by
the Petitioner. Instead, the 2005 FDA Model Food
Code is merely a model set of guidelines prepared by
the FDA. In fact, the 2005 FDA Model Food Code
relied upon by the Petition clearly states that “[t]he
model Food Code is neither federal law nor
federal regulation and is not preemptive. Rather, it
represents FDA's best advice for a uniform system of
regulation to ensure that food at retail is safe and
properly protected and presented.” See 2005 FDA
Model Food Code at Preface pg. iii, 2(A) History and
20

Purpose (emphasis added)
(the 2005 FDA Model
F o od
Co de
i s
a v a i l a b l e
a t
https://www.fda.gov/food/fda-food-code/food-code-2005).
Thus, the Petitioner’s contention that the 2005
FDA Model Food Code is “a federal regulation” or that
it establishes due process rights is quite simply
erroneous and a misstatement of fact and law. The
adoption of the 2005 FDA Model Food Code by the
State of West Virginia does not transform the model
guidelines into a “federal regulation” by any means.
Therefore, the Respondents object to the Petitioner’s
erroneous representations that the 2005 FDA Model
Food Code is “a federal regulation” which establishes
due process rights in the second Question Presented as
well as at all other locations within the Petition on the
grounds that such representations are a misstatement
of fact and/or law.
CONCLUSION
For the foregoing reasons, the Court should deny
the Petition for Writ of Certiorari.
Respectfully submitted,
Jeffery W. Lilly
Rose Padden Petty Taylor & Lilly, L.C.
301 Adams Street, Suite 612
P.O. Box 1307
Fairmont, West Virginia 26554
(304) 363-4260
jlilly@rpptl.com
Counsel for Respondents
21

